HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Colorado,"(A-07-03-04018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Colorado," (A-07-03-04018)
October 7, 2003
Complete
Text of Report is available in PDF format (441 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
OIG evaluated whether the Colorado Department of Health Care Policy and Financing (Department) had established adequate
accountability and internal controls over the Medicaid drug rebate program.  We determined that controls were adequate
with the exception of (1) deductions for a State-funded only program, (2) billing and tracking $0 unit rebate amounts (URA's)*,
(3) adjustments, and (4) records retention.
Our review showed that although the Department intended to pay the Federal share of drug rebate collections upfront as
determined by the billed amount, subsequent adjustments were made to rebate accounts that changed the amounts due to the
Federal Government.  As a result, the collections reported by the Department to the Centers for Medicare and Medicaid
Services (CMS) were incorrect and CMS did not receive its share of all collections.  In addition, drug rebate receivables
were perpetually understated.
* The CMS provides the unit rebate amount (URA) information to the State agency on a quarterly computer tape.  However,
the CMS tape may contain a $0 URA if the pricing information was not provided timely, or if the computed URA has a 50 percent
variance from the previous quarter.  In instances of $0 URA's, the State agency is instructed to invoice the units
and the manufacturer is required to calculate the URA and remit the appropriate rebate to the State agency.